         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report


Management Controls over the
Department of Energy's
Superconductivity Partnerships




OAS-M-07-01               January 2007
                              Department of Energy
                                  Washington, DC 20585


                                  January 18, 2007



MEMORANDUM FOR THE DIRECTOR, OFFICE OF ELECTRICITY DELIVERY
                 AND ENERGY RELIABILITY
                 ?. '
                                            J

                        -i' /[ ( '4 [l/
                                                1   ,


                                      -
FROM:          6          . Collard
             - ~'ksistarhlnspector General
                 for Perfomlance Audits
               Office of Inspector General

SIJBJ ECT:                INFORMATION: Audit Report 011 "Management Controls
                          over the Department of Energy's Superconductivity
                          Partnerships"

BACKGROUND

The Department of Energy, through its Office of Electricity Delivery and Energy
Reliability, funds Superconductivity Partnerships. Each Superconductivity Partnership
(Partnership) receives financial assistance primarily through a cooperative agreement
with industry to research and develop high-temperature superconducting electric power
cquipmcnt technologies. These technology projects offer the potential to drastically
increase electricity transnlission capacity but represent a challenging objective since it is
difficult to estimate the probability of success for such projects. Examples of these
technologies include generators, transformers, magnetic energy storage systems,
superconducting wire, and prototypes that have application in both the commercial and
defensc sectors. The Office of Electricity Delivery and Energy Reliability develops the
mission and objcctives for Partnership projects; formulates and justifies the budget; and,
provides overall guidance and direction. The Golden Field Office located in Golden,
Colorado, is responsible for administering the Partnership cooperative agreements.

As of .l~rly2006, the Office had 16 open projects with a total Federal cost share of
approximatcly $128 million. In prior reports on the use of research and developnlent
cooperative agreements, the Office of Inspector General raised concerns over the
Department's management of projects. Specifically, the Department did not always
iniplemcnt risk mitigation measures despite signs of risk and was reluctant to withhold,
suspend, or terminate fi~ndingwhen it became apparent that the terms of the financial
assistance award would not be fulfilled. The objective of this audit was to deterniine
whether the Office of Electricity Delivery and Energy Reliability (Office) had effectively
managed financial assistance provided to Partnership projects.

RESULTS OF AUDIT

We noted that while efforts were taken to address certain technical risks, the financial
risks were not always addressed, and changes in market conditions were not always fully
assesscd.
                                             2

For example, Federal project managers did not identify and manage financial risks
associated with funding one project that led to a $3.8 million increase in the Federal cost
share. In this case, managers did not:

   •   Identify the financial risk associated with funding the design of the project when
       the design specifications depended on the characteristics of a site that had not yet
       been obtained. In October 2003, the industry partner notified the Federal project
       managers that it was in negotiations, but had not yet secured a site for the project.
       Despite knowing this risk, the Office continued funding the project. Negotiations
       for a site stalled, and a final site was not secured until January 2006. The project
       incurred duplicative costs for site plans, installation engineering, and design work
       related to the new site; and the Department paid for 50 percent of these
       duplicative costs, or approximately $1.8 million.

   •   Address currency rate fluctuations affecting an international partnership on the
       above project. Specifically, Federal project managers did not consider obtaining
       insurance or institute other controls to mitigate the risk that exchange rate
       fluctuations would occur and increase the Department's financial risk. As a result,
       the Department's cost share on this project increased by approximately $2 million.

In total, our review identified 5 of the 16 open Superconductivity Partnership projects as
needing stronger financial oversight. This resulted from the fact that the Office of
Electricity Delivery and Energy Reliability had not developed and implemented polices
and procedures that required Federal project managers to:

   •   Develop a financial risk mitigation plan for each project;

   •   Ensure that each cooperative agreement clearly delineates the substantial
       involvement anticipated between the Department and the industry partners; and,

   •   Use a formal process to evaluate continuing projects when industry partners
       request termination or notify the Department that markets no longer support the
       continued financial investment.

Overall, approximately $5 million was expended on redesign work and other unnecessary
costs that could have been better spent by the Department in meeting program goals.
Also, in one case, the Department may be exposed to further financial risk since the
Office plans to spend an additional $2 million to $3 million for demonstration of a
technology for which the research and development has not been successfully completed.

Office program officials informed us that they recognized the need for improved financial
monitoring at key decision points and were working toward improvements in future
Partnership projects. To assist in that effort, we made recommendations to improve the
Office's financial management of its Partnership cooperative agreements.
                                          3

MANAGEMENT REACTION

Management concurred with our findings and recommendations. Their comments were
responsive to our recommendations; and their actions, when fully implemented, should
improve the management of financial risk of the Superconductivity Partnerships.
Management's comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Manager, Golden Field Office
REPORT ON MANAGEMENT CONTROLS OVER THE DEPARTMENT
OF ENERGY'S SUPERCONDUCTIVITY PARTNERSHIPS


TABLE OF
CONTENTS


  Partnership Projects

  Details of Finding                                1

  Recommendations                                   5

  Comments                                          6



  Appendices

  1. Objective, Scope, and Methodology              7

  2. Related Audit Reports                          9

  3. Management Comments                            10
PARTNERSHIP PROJECTS

Management of          The Office of Electricity Delivery and Energy Reliability
Financial Assistance   (Office) did not always effectively manage its financial assistance
                       for 5 of the 16 open Superconductivity Partnership (Partnership)
                       projects. These five projects represent a Federal cost share totaling
                       approximately $43 million. Although technical risks were
                       considered for some projects, the financial risks were not always
                       addressed, and changes in market conditions were not always fully
                       assessed.

                                                 Risk Mitigation

                       In the case of three projects, Federal project managers did not
                       identify and manage financial risks. For one project to develop a
                       cable system, which had a Department of Energy (Department)
                       cost share of approximately $23.4 million, Federal managers
                       provided funding although:

                         • In October 2003, the industry partner notified the Federal
                           project managers that it was in negotiations to obtain the
                           necessary rights of way to a site, but it had not yet secured a
                           site for the project. Despite knowing this risk, the Federal
                           project managers continued funding the project; and, in order
                           to maintain progress, the industry partner proceeded with the
                           project design based on the specifications of the proposed
                           initial site. Negotiations for a site stalled, and an alternative
                           final site was not secured until January 2006, over two years
                           later. Consequently, the project incurred duplicative costs for
                           site plans, installation engineering, and design work related
                           to the new site. The Department was responsible for
                           50 percent of these costs, or approximately $1.8 million.

                         • Various means are available to address the risk of foreign
                           currency exposure, including insurance and fixed exchange
                           rate contracts, none of these were considered when European
                           partners became involved in the project. In July 2004, the
                           industry partner first reported cost overruns due to the
                           exchange rate fluctuations between the dollar and the euro.
                           Nevertheless, Federal project managers did not consider
                           taking action and the overrun amounts continued to increase
                           for another year, to over $4 million. The Department's share
                           of the overruns totaled 50 percent, or approximately
                           $2 million.

                       Financial risks can also be mitigated by sequentially awarding
                       funds for each discrete phase of work, such as research and
                       development (R&D), demonstration, and commercialization, since
                       the outcome of one phase is generally dependent upon the success


Page 1                                                                 Details of Finding
         of the prior phase. However, the Office decided in the case of two
         projects to concurrently fund multiple phases of work without
         assessing the financial risk should the preceding phase fail.

           • In the case of one project to develop a fault current limiter,
             which is essentially a device used to protect the transmission
             system, the Office decided to allow the R&D and
             demonstration phases to be conducted in parallel. The
             project was awarded in July 2003 and included a Federal cost
             share of approximately $6 million for the demonstration
             phase. However, in September 2005, certain elements of the
             project were placed on hold by the industry partner due to
             technical problems, and further R&D work was considered
             necessary. Despite the fact that approximately $4.4 million
             had already been provided for the demonstration phase,
             between October 2005 and January 2006, the Federal project
             managers approved funding for additional R&D through
             another superconductivity program and obligated an
             additional $500,000 for demonstration tasks. Although the
             Federal project managers estimate that an additional
             $2 million to $3 million is needed to complete the
             demonstration tasks, there was no evidence that they assessed
             the financial risks of continuing to fund the demonstration
             phase despite the technical problems.

           • In another case, the Office approved the commercialization
             tasks of a project prior to the successful completion of the
             demonstration tasks. The project, approved in September
             2002, was to commercialize a flywheel at a Federal cost
             share of approximately $8 million. Federal project managers
             obligated an initial $250,000 for commercialization tasks at
             the time of award, which was timed to coincide with the
             expected completion date of the demonstration tasks.
             However, the demonstration project failed during testing in
             November 2002. Despite this, the Federal project managers
             did not suspend funding on the commercialization tasks; and,
             obligated an additional $250,000 several months after the
             demonstration failure occurred. There was no evidence that
             Federal project managers assessed the financial risks of
             continuing to fund the commercialization of the technology
             after the demonstration failed. Of the $500,000 in total
             obligated dollars, the industry partner had spent over
             $363,000 on redesign and purchasing of parts to be used in
             the commercialization of the project. Federal project
             managers have since acknowledged the importance of
             curtailing funding for subsequent phases without the
             successful completion of prior phases.


Page 2                                                  Details of Finding
         By contrast, the Department has successfully demonstrated that
         Federal dollars can be saved by evaluating projects after the
         completion of a phase and prior to continuing with follow-on
         work. For example, one of the 16 Partnership projects we
         examined required that an informed decision be made at the
         conclusion of the R&D phase about the suitability and advisability
         of proceeding to the next phase of the project. The Department
         evaluated the project at the end of the R&D phase and decided not
         to continue; accordingly, the project is currently being closed out.
         In this case, only $613,309 of approximately $5 million of the
         Department's cost share for the project was expended.

                     Evaluating Viability of Continuing Projects

         Federal project managers decided to continue two projects without
         the benefit of a formal cost-benefit or market analysis, even though
         the industry partners requested termination or notified the
         Department that the markets no longer supported the continued
         financial investment. According to Office officials, the industry
         partners have the primary responsibility for evaluating changes in
         technology and informing the Department of these changes. In
         turn, Department guidance states that the Department has the
         responsibility to make sound decisions that ensure the most
         effective use of funds and to justify the rationale for those
         decisions.

         Despite this, the Federal project managers continued to fund one
         project even though the industry partner notified them that a
         sufficient business opportunity did not exist to continue support of
         the project's technology. The project, awarded in September 2001,
         was to develop a magnetic separator at a Federal cost share of
         approximately $4.1 million. However, in January 2004, the
         original industry partner requested that the Federal project
         managers approve terminating work on the project and close out
         the cooperative agreement. The Federal project managers
         expressed interest in completing the project and denied the request.
         However, these managers did not conduct a formal evaluation such
         as cost-benefit or market analyses to support their decision to
         continue the project. The project was subsequently assigned to a
         new industry partner in September 2005, and has been on hold
         since the request for termination. During this time, the Department
         continued to provide funding including $100,000 to prepare,
         package, and ship the equipment to the new industry partner. In
         2006, the Office decided to discontinue funding since the scope
         was no longer in line with revised Partnership goals.




Page 3                                                    Details of Finding
                    Federal project managers continued another project, even after one
                    Partnership participant decided to withdraw from the project based
                    on shifts in the market demand and the inability to make the
                    product at a competitive cost. The project, awarded in May 2002,
                    with a Department cost share of approximately $1.2 million, was to
                    develop a Magnetic Resonance Imaging, or "MRI" system. Even
                    though the project's research had been completed, the Department
                    authorized the industry partner to use the estimated remaining
                    $349,000 to pursue another market area for the project. The
                    Federal project managers did not conduct formal cost or market
                    analyses before deciding to continue funding the project.
                    Moreover, subsequent efforts to apply the technology to the new
                    market area have not been completed.

Program Oversight   The Office had not developed an effective strategy to manage the
                    financial assistance of its Partnership cooperative agreements.
                    Specifically, the Office had not developed policies and procedures
                    to ensure that Federal project managers:

                      • Identify and mitigate financial risk for cooperative
                        agreements. For example, the Office did not require Federal
                        project managers to analyze and document their decision to
                        provide funding for the cable system design when the project
                        specifications depended on the characteristics of a site that
                        had not yet been obtained. Such a requirement may have
                        limited the amount of funds spent on a design that
                        subsequently had to be redone because a different site was
                        eventually secured.

                      • Ensure that each cooperative agreement clearly delineated the
                        substantial involvement anticipated between the Department
                        and the industry partners. For example, the Office allowed
                        the Federal project managers to enter into cooperative
                        agreements that did not specify that the Department could
                        review and approve the completion of one phase of work
                        prior to initiating work on subsequent phases. This increased
                        the financial risk to the Department.

                      • Conducted formal evaluations of the viability of continuing
                        projects when industry partners requested termination or
                        believed the markets no longer supported the continued
                        financial investment. Although our review showed that
                        decisions to continue projects were discussed, it was clear
                        that the managers had not conducted and documented formal
                        evaluations, including cost and/or market analyses, to support
                        their decisions.



Page 4                                                             Details of Finding
Effective Use     Overall, approximately $5 million was spent to redesign a
of Funding        project and for other unnecessary costs that could have been better
                  used by the Department. Also, the Department may be exposed to
                  further financial risk since the Office plans to spend an additional
                  $2 million to $3 million to demonstrate a technology for which the
                  R&D has not been successfully completed.

                  Improvement in the management of Partnership projects is
                  especially important given that the Department announced a
                  financial assistance funding opportunity for superconducting
                  power equipment in August 2006. The Department anticipates that
                  its share of funding for any one award will be between $20 million
                  to $30 million of the total allowable project costs. To their credit,
                  Office program officials stated that they plan to improve the
                  management of financial assistance for future Partnership projects.

                  In July 2006, the Department revised its Guide to Financial
                  Assistance, outlining, among other things, basic principles of
                  program and project management that can be applied to
                  cooperative agreements.


RECOMMENDATIONS   Consistent with the Department's guidance and sound business
                  practices, we recommend the Director, Office of Electricity
                  Delivery and Energy Reliability, ensure that policies and
                  procedures relating to the management of financial assistance for
                  the Partnership projects are developed and implemented that
                  require Federal project managers to:

                    1. Prepare a financial risk mitigation plan at the time of project
                       award and periodically update thereafter, which includes:
                       (i) completing a risk analysis to identify key impediments to
                       successful project completion; and, (ii) designing and
                       executing mitigating procedures to address the identified
                       impediments;

                    2. Ensure that each cooperative agreement clearly delineates
                       the substantial involvement anticipated between the
                       Department and the industry partners; and,

                    3. Evaluate the viability of continuing projects when industry
                       partners request termination of the project or believe the
                       markets no longer support the continued financial
                       investment, including documenting the results of the
                       evaluation and steps taken to arrive at the Department's
                       decision.



Page 5                                                           Recommendations
MANAGEMENT    Management concurred with each of the recommendations and
AND AUDITOR   agreed to take corrective actions. Specifically, Management
COMMENTS      agreed to: 1) complete a financial risk mitigation plan at the time
              of project award beginning with the Fiscal Year 2007 awards made
              under its next funding opportunity; 2) address international entities'
              participation in cooperative agreements and the financial risk
              associated with currency fluctuations; 3) define specific
              responsibilities that it and the recipient will have in regard to each
              cooperative agreement; and, 4) consider continuing projects only
              after industry partners submit a Continuation Application, which
              management must approve before projects advance into the next
              performance period. We consider management's proposed actions
              to be responsive to the recommendations. Management's verbatim
              comments are included in Appendix 3.




Page 6                                                                 Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Office of
              Electricity Delivery and Energy Reliability (Office) has effectively
              managed its financial assistance of the Superconductivity
              Partnership (Partnership) projects.


SCOPE         The audit was performed between March and October 2006 at the
              Office, located in Washington, D.C., and with Federal project
              managements at the Golden Field Office (Golden), located in
              Golden, Colorado. The scope of this audit was limited to the 16
              Partnership projects that were open as of July 2006.


METHODOLOGY   To accomplish the audit objective, we:

                • Obtained and reviewed laws, regulations, policies, and
                  procedures relevant to the Department of Energy's
                  (Department) award and management of Partnership
                  cooperative agreements;

                • Reviewed results of prior audits and reviews;

                • Held discussions with Office and Golden officials regarding
                  the history of the Partnership projects; current status of the
                  Partnership projects; and, monitoring/oversight procedures;

                • Identified all the Partnership projects that had been awarded,
                  and reviewed the status to determine those still open;

                • Obtained and reviewed the cooperative agreement award files
                  and other correspondence for the 16 open Partnership
                  projects identified;

                • Reviewed award decision documents; and,

                • Discussed the results of the work performed with Office and
                  Golden officials.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Specifically, we tested controls with respect to the Department
              managing financial assistance of the Partnership projects. Because




Page 7                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    our review was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the time of
                    our audit. Also, we considered the establishment of performance
                    measures in accordance with the Government Performance and
                    Results Act of 1993 as they related to the audit objective. Specific
                    performance measures concerning the management of financial
                    assistance did not exist. We relied on computer-processed data to
                    accomplish our audit objective. We performed test work of data
                    reliability that was necessary to meet our audit objective.

                    Management waived an exit conference on January 10, 2007.




Page 8                                          Objective, Scope, and Methodology
Appendix 2

                                RELATED AUDIT REPORTS


•   Selected Energy Efficiency and Renewable Energy Projects (DOE/IG-0689, May 2005).
    This audit found that the Department of Energy's (Department) Energy Efficiency and
    Renewable Energy project officials were not always sufficiently involved in managing
    projects funded by cooperative agreements with commercial organizations. Specifically, in
    some cases, the current Federal project officials had not reviewed the project files and had no
    knowledge of the status of a project or whether needed reviews and visits had been
    performed. In addition, two of the projects reviewed suffered from significant management
    problems and were not going to meet their objectives. Energy Efficiency and Renewable
    Energy also did not have a system to identify high-risk projects which would have allowed
    project officials to focus their attention on those agreements with weaknesses rather than all
    agreements under their purview. Per the Department's Guide to Financial Assistance,
    Federal project officials should quickly identify high-risk projects and become substantially
    involved in their management and performance and in so doing, project officials can take
    steps to better monitor financial and business information on problem projects.

•   The McNeil Biomass Project (DOE/IG-0630, December 2003). The Department continued
    to provide funds to the McNeil Biomass Project (Project) even though there was little or no
    progress toward meeting its Fiscal Year 2002 objectives. Progress reports frequently
    indicated that milestones were not achieved or no activities were conducted and the program
    officials continued to authorize reimbursements for expenditures. Similarly, funding was not
    interrupted even after the recipient notified the Department that it would not be possible to
    complete scheduled tests because of various delays. Program officials did not devote
    adequate attention to establishing project objectives and did not closely monitor the Project.
    In addition, no action was taken to modify milestones or alter funding plans even after the
    recipient made it clear that it was not possible to complete scheduled tests because of various
    delays.

•   Financial Assistance for Biomass-To-Ethanol Projects (DOE/IG-0513, July 2001). The
    Department's Office of Fuels Development (OFD) did not implement risk mitigation
    measures despite signs of risk. Specifically, OFD made an award to a company without
    assurance that a needed financing package would be available. Also, tight constraints were
    not placed on funding when the decision was made for the Department to have a high cost
    share percentage. In addition, funding was not terminated when it became apparent that the
    key first phase deliverables of the project would not be met. Rather, the Department decided
    to modify the scope of the project to delete the second phase and continued funding the
    original phase. Additionally, OFD did not withhold, suspend, or terminate funding to a
    company when it became apparent that it would not fulfill the terms of the financial
    assistance awards. Specifically, OFD continued to fund it after it reached its original funding
    ceiling.




Page 9                                                                   Related Audit Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
                                                                    IG Report No. OAS-M-07-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                      http://www.ig.energy.gov/

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
